FDII 

Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                       Office of Inspector General



                                     System Review Report


  April30, 2014

  James E. Springs, Acting Inspector General
  National Archives and Records Administration


  We have reviewed the system of quality control for the audit organization of the National
  Archives and Records Administration (NARA) Office of Inspector General (OIG) in effect
  for the 12-months ended September 30, 2013. A system of quality control encompasses the
  NARA OIG's organizational structure and the policies adopted and procedures established
  to provide the NARA OIG with reasonable assurance of conforming with Government
  Auditing Standards, December 2011 Revision, issued by the Comptroller General of the
  United States. The elements of quality control are described in Government Auditing
  Standards. The NARA OIG is responsible for designing a system of quality control and
  complying with it to provide reasonable assurance of performing and reporting in
  conformity with applicable professional standards in all material respects. Our
  responsibility is to express an opinion on the design of the system of quality control and
  NARA OIG's compliance therewith based on our review.

  We conducted our review in accordance with Government Auditing Standards and the
  Guide for Conducting External Peer Reviews ofthe Audit Organizations ofFederal Offices
  ofInspector General, which was issued by the Council ofthe Inspectors General on
  Integrity and Efficiency (CIGIE) in March 2009 and updated in November 2012. During
  our review, we interviewed NARA OIG's personnel and obtained an understanding of the
  nature of the NARA OIG audit organization and the design of the NARA OIG's system of
  quality control sufficient to assess the risks implicit in its audit function. Based on our
  assessments, we selected engagements and administrative files to test for conformity with
  professional standards and compliance with the NARA OIG's system of quality control.
  The selected engagements represented a reasonable cross-section of the NARA OIG's
  audit organization, with an emphasis on higher-risk engagements. Prior to concluding the
  review, we reassessed the adequacy of the scope of the peer review procedures and met
  with NARA OIG management to discuss the results of our review. We believe that the
  procedures we performed provide a reasonable basis for our opinion.

  In performing our review, we obtained an understanding of the system of quality control
  for the NARA OIG's audit organization. In addition, we tested compliance with the
  NARA OIG's quality control policies and procedures to the extent we considered
  appropriate. These tests covered the application of the NARA OIG's policies and
  procedures on selected engagements. Our review was based on selected tests; therefore, it
  would not necessarily detect all weaknesses in the system of quality control or all instances
  of noncompliance with it.
There are inherent limitations in the effectiveness of any system of quality control and,
therefore, noncompliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions or because the degree of compliance with the policies or procedures
may deteriorate.

Attachment 1 to this report identifies the office that we visited and the engagements that
we reviewed. Attachment 2 contains the NARA OIG's written response to a draft ofthis
report.

In our opinion, the system of quality control for the audit organization of the NARA OIG,
in effect for the 12-months ended September 30, 2013, has been suitably designed and
complied with to provide the NARA OIG with reasonable assurance of performing and
reporting in conformity with applicable professional standards in all material respects.
Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail. The
NARA OIG audit organization has received a peer review rating of pass.

As is customary, we have issued a Letter of Comment, dated April 30, 2014, that sets forth
findings that were not considered to be of sufficient significance to affect our opinion
expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with Government
Auditing Standards, we applied certain limited procedures, in accordance with guidance
established by CIGIE, related to the NARA OIG's monitoring of engagements performed
by Independent Public Accountants (IPA) under contract where the IP A served as the
principal auditor. It should be noted that monitoring of engagements performed by IP As
does not constitute an audit and, therefore, is not subject to the requirements of
Government Auditing Standards. The purpose of our limited procedures was to determine
whether the NARA OIG had controls to ensure the IP As performed contracted work in
accordance with professional standards. Our objective was not to express an opinion and
accordingly, we do not express an opinion, on the NARA OIG's monitoring of work
performed by IPAs. We made certain comments related to the NARA OIG's monitoring
of engagements performed by IPAs in the above-referenced letter, dated April 30, 2014 .




       . Gibson, Jr.
     g Inspector General

Attachments




                                              2

                                                                                          Attachment 1


                                 SCOPE AND METHODOLOGY


We tested compliance with the NARA OIG audit organization's system of quality control
to the extent we considered appropriate. These tests included a review of 5 of 11 audit
                             1
reports and audit memoranda issued during the period October 1, 2012 through
September 30, 2013. Of the five audits that we reviewed, one involved the NARA OIG's
monitoring of an IP A where the IP A served as the principal auditor during the period
October 1, 2012 through September 30, 2013. We also reviewed the five internal quality
assurance reviews performed by the NARA OIG during the same period. In addition, we
performed limited procedures to assess six assignments that were not performed in
accordance with Government Auditing Standards.

The CIGIE Guide for Conducting External Peer Reviews ofthe Audit Organizations of
Federal Offices ofInspector General, issued in March 2009 and updated in November
2012, was used in the conduct of this review. We conducted our work in the College Park,
Maryland, office of the NARA OIG.

     1 s Pertorme d bty th e NARA OIG That W ere SeIect ed t or Rev1ew
A u d't                                                                 '
 Report       Report                                 Report Title
    No.         Date
   13-06     01/31/2013 Audit ofNARA 's Compliance with the Improper Payment
                          Elimination and Recovery Act of20 I 0
   13-11     09/19/2013 Audit ofthe Base ERA System's Ability to InKest Records
   13-14     09/18/2013 Audit ofProcessing ofTextual Records
   13-15     09/25/2013 NARA 's Handling ofPaper-Based Disclosure ofPersonally
                          Identifiable Information (PII)

M om'tormg  1 es tor an IPA A u d1' t That W as S eIec ted t or R ev1ew
        ' F'l                                                       '
 Report    Report                                Report Title
   No.      Date
  13-05   12/10/2012 Cotton and Company's NARA FY 2012 Financial Statements
                       Independent Audit Report




1
  According to the NARA OIG Procedures Manual v3 (Procedures Manual), audit memoranda are used to
repmt the results of a performance audit when there are no fmdings or when the findings are considered to be
insignificant.
                                                     3
                                                                                                  Attachment 2



           NARA OIG COMMENTS ON THE DRAFT REPORT




    NATIONAL 

    ARCHIVES 

     OFFICE of
INSPECTOR GENERAL

   April23, 2014     ·

   Fred W. Gibson, Jr, 

   Acting Inspector General 

   Office oflnspector General (OIG) 

   Federal Deposit Insurance Corporation 

   3501 Fairfax Drive 

   Arlington, VA 22226 


    Dear Mr. Gibson,

    I have reviewed the draft System Review Report swnmarizing the results of your review of
    our Office's system of quality control for the year ended September 30, 2013 and concur
    with the report's conclusions. We are pleased that your independent review of the Office of
    Audits' operation resulted in a pass opinion. We believe that the intent of the peer review
    process is to improve the audit function within the subject agency. Certainly the feedback
    you provided us is viewed as having been constructive and useful in helping us strengthen
    and maximize our audit activities and resources.

    The Letter of Comment contains recommendations that, while not affecting the overall
   ·opinion expressed, are designed to strengthen the Office of Audits' system of quality control.
    We generally concur with the recommendations and are taking corrective actions to address
    them. Those actions and proposed completion dates are described in detail in the enclosure.

    I appreciate the professional manner in which the audit was conducted and wish to
    commend Allan Sherman, Sandra Moses, Howard Trebelhom and Arlene Boateng for their
    efforts. If you have any questions, please call me at (301) 837-3000.

    Respectfully,                 '

    ~/~q)fY
    James Springs
    Acting Inspector General


 NATIONAL ARCHIVES       and
 RECORDS ADMINISTRATION
8601 ADElPHI ROAD. ROOM IJOO
COLLEGE PARK. MD 20740·6001
      www.arrhivu.sov




                                                    4

